September 27, 2002

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT: Audit Report – Integrated Data System Upgrade
         (Report Number EM-AR-02-013)

This report presents the results of our review of the Integrated Data System Upgrade
(Project Number 02BG012EM000). The self-initiated review was part of an on-going
series of audits to review systems during the systems development life cycle process.

The audit disclosed that the Postal Service in-plant test plan addressed key standards
and that test procedures were fully documented with expected results. However, the
Postal Service did not: always involve key stakeholders in the Integrated Data System
upgrade, follow the Engineering software change request process for the upgrade,
complete all information security assurance requirements, and identify the hardware
resources and unique network requirements for each of the Integrated Data System
upgrade sites. As a result, the Postal Service upgrade may not meet customers’ needs,
take full advantage of the system’s capabilities, adequately protect its information, and
function properly at all sites.

This report made five recommendations addressing these issues. Management agreed
with three of the recommendations and has planned corrective actions addressing those
issues identified in this report. Management disagreed with recommendations 1 and 2.
However, management’s planned actions satisfy the intent of recommendation 1. The
Office of Inspector General considers recommendation 2 as unresolved, but does not
plan to pursue it through the formal audit resolution process. Management’s comments
and our evaluation of these comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have questions or need additional information, please contact Robert J. Batta,
director, eCommerce and Marketing, at (703) 248-2100, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: Richard J. Strasser, Jr.
    Robert L. Otto
    Anita J. Bizzotto
    Oscar L. Avant
    Charles R. Lueck
    Steven N. Benson
    Carole D. Koehler
    George W. Wright
    James L. Golden
    Susan M. Duchek
Integrated Data System Upgrade                               EM-AR-02-013



                                 TABLE OF CONTENTS
 Executive Summary                                                 i

 Part I

 Introduction                                                     1

    Background                                                    1
    Objectives, Scope, and Methodology                            1
    Prior Audit Coverage                                          2

 Part II

 Audit Results                                                    3

   Stakeholder Involvement                                        3
   Recommendation                                                 4
   Management’s Comments                                          4
   Evaluation of Management’s Comments                            4

   Software Change Request Process                                5
   Recommendation                                                 5
   Management’s Comments                                          5
   Evaluation of Management’s Comments                            6

   Information Security Assurance Process                         7
   Recommendation                                                 8
   Management’s Comments                                          8
   Evaluation of Management’s Comments                            8

   Hardware Resources                                             9
   Recommendation                                                 9
   Management’s Comments                                         10
   Evaluation of Management’s Comments                           10

   System Test Plan                                              11
   Recommendation                                                11
   Management’s Comments                                         11
   Evaluation of Management’s Comments                           11

   In-Plant Test Plan                                            12

 Appendix. Management’s Comments                                 13




                                    Restricted Information
Integrated Data System Upgrade                                                                     EM-AR-02-013



                                      EXECUTIVE SUMMARY
    Introduction                  There are five major stages in the systems development life
                                  cycle.1 Each stage has several process points that need to
                                  be accomplished to develop a successful project. This
                                  report presents our self-initiated audit of the requirements
                                  definition and testing of the Integrated Data System upgrade
                                  initiative. This is the fifth report in a series of Office of
                                  Inspector General (OIG) audits of Postal Service initiatives
                                  in the early phases of development. By early involvement in
                                  the process, the OIG can make recommendations to resolve
                                  issues prior to system implementation. Studies indicated
                                  that it is up to 100 times more costly to make changes after
                                  a system is placed into production. Our objectives were to:
                                  (1) determine if appropriate oversight took place to develop
                                  and implement the upgrade, (2) evaluate the adequacy and
                                  completeness of requirements, and (3) assess the testing
                                  phase.

    Results in Brief              Our review found that: (1) key stakeholders were not always
                                  involved in the Integrated Data System upgrade,
                                  (2) the engineering software change request process for the
                                  upgrade as well as the information security assurance
                                  process was not followed, and (3) the statement of work and
                                  software requirements specification did not identify all the
                                  hardware resources. We did find, however, that the test
                                  procedures were fully documented with expected results
                                  and the in-plant test plan included key standards.

                                  As a result, the Postal Service risks not meeting their
                                  customers’ needs or taking full advantage of the systems
                                  capabilities; cannot ensure that the impact the upgrade has
                                  on resources, customers, and other systems has been
                                  identified and addressed; or that due care was taken to
                                  protect its information resources. Finally, the Postal Service
                                  is at risk that the upgraded system will not work at all sites.

    Summary of                    We made 5 recommendations to correct the identified
    Recommendations               deficiencies which include ensuring: proper communication
                                  occurs with all stakeholders; program managers use the
                                  software change request process for all changes and
                                  enhancements; completion of the information security
                                  assurance requirements for the upgrade; and performance

1
 A systems development life cycle is a logical process by which systems analysts, software engineers, programmers,
and end users build information systems and computer applications to solve business problems and needs.

                                                        i
                                             Restricted Information
Integrated Data System Upgrade                                                     EM-AR-02-013



                                 of evaluations are conducted of network infrastructure at
                                 each site prior to deployment.

 Summary of                      Management disagreed with our first two findings and
 Management’s                    recommendations and believed there was adequate
 Comments                        stakeholder involvement and that the software change
                                 request process did not need to be followed. Management
                                 agreed with the remaining findings and recommendations
                                 and is in the process of implementing corrective actions to
                                 address those recommendations. Management’s
                                 comments, in their entirety, are included in the appendix of
                                 this report.

 Overall Evaluation of           We disagree with management’s response to
 Management’s                    recommendation 2. We also believe the system upgrade
 Comments                        should have followed the software change request process.
                                 We view the disagreement on recommendation 2 as
                                 unresolved but do not plan to pursue it through the formal
                                 audit resolution process. Management’s comments are
                                 responsive to findings and recommendations 1, 3, 4, and 5.
                                 We agree with the planned corrective action for each of
                                 these recommendations.




                                                    ii
                                         Restricted Information
Integrated Data System Upgrade                                                     EM-AR-02-013



                                    INTRODUCTION
 Background                      The Integrated Data System currently provides data to
                                 Confirm, a program that enables the Postal Service to share
                                 mail tracking and status information with mailers. In the
                                 future, mail processing data collected by the Integrated Data
                                 System will be used to monitor the performance of mail
                                 processing equipment. The system is currently in use at
                                 300 Postal Service facilities.

                                 As new programs feeding data to and relying on Integrated
                                 Data System come on-line, the system will have to handle
                                 additional data more frequently than its current capability.
                                 The estimated cost of $34 million for the upgrade consists,
                                 in part, of $18 million in hardware and $10 million in
                                 software. The upgraded capability will be provided to all
                                 existing sites and 25 additional sites.

                                 When our review took place, the Integrated Data System
                                 upgrade was at the testing phase. We reviewed both the
                                 requirements and testing phases of the project.




 Objectives, Scope,              The objectives of the Integrated Data System upgrade audit
 and Methodology                 were to: (1) determine whether appropriate oversight took
                                 place to develop and implement the upgrade, (2) evaluate
                                 the adequacy and completeness of requirements, and
                                 (3) assess the testing phase.

                                 To accomplish our objectives, we interviewed key project
                                 management personnel, including the executive sponsor,


                                                1
                                     Restricted Information
Integrated Data System Upgrade                                                       EM-AR-02-013



                                 program manager, contracting officer representative,
                                 Software Process Management personnel, and the
                                 information system security representative. In addition, we
                                 interviewed key stakeholders under the chief technology
                                 officer, Marketing, and Operations organizations. We also
                                 reviewed key documentation related to requirements,
                                 testing, and program management.

                                 This audit was conducted from April 2002 through
                                 September 2002, and fieldwork occurred April 2002 through
                                 July 2002 in accordance with generally accepted
                                 government auditing standards and included tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate. We did not
                                 rely on computer-generated data to accomplish the
                                 objectives of this audit.

 Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                 objectives of this audit.




                                                 2
                                      Restricted Information
Integrated Data System Upgrade                                                      EM-AR-02-013



                                    AUDIT RESULTS
 Stakeholder                     Key stakeholders were not always involved in the Integrated
 Involvement                     Data System upgrade project. Specifically, some of the
                                 maintenance managers at the mail processing centers were
                                 not aware of the upgrade. In addition, Confirm program
                                 management did not always participate in project decisions
                                 or review key development documents.

                                 The Engineering methodology for software development
                                 requires all customers and users to review key development
                                 documents, such as user requirements, software
                                 requirements specification, software test plans, and in-plant
                                 test plans. The methodology also states that a field
                                 announcement should be distributed to notify users and
                                 stakeholders of software development activities.
                                 Furthermore, users and customers are members of the
                                 project change board, which is responsible for the review
                                 and disposition of all changes to a software system during
                                 its life cycle.

                                 Engineering officials indicated that they notified a
                                 coordinator at each mail processing center concerning the
                                 upgrade. However, the information received by the
                                 coordinators was not always shared with the maintenance
                                 managers at these centers.

                                 Confirm program management was not always involved
                                 because key program officials believed that the system
                                 upgrade had no impact on Confirm. However, we believe
                                 that Confirm program management should be involved
                                 anytime there is a change in the transmission of PLANET
                                 code data. Furthermore, Confirm program management
                                 should be considering the mailers’ future expectations and
                                 how the upgrade could be used to meet their needs.

                                 As a result of not having all key stakeholders involved, the
                                 Postal Service risks not meeting their customers’ needs or
                                 taking full advantage of the system’s capabilities. This may
                                 lead to additional system requirements, which could have
                                 been addressed under the current upgrade.




                                                 3
                                      Restricted Information
Integrated Data System Upgrade                                                     EM-AR-02-013




 Recommendation                  We recommend the vice president, Engineering; senior vice
                                 president, Operations; and the chief technology officer,
                                 ensure:

                                    1. Proper communication occurs with all key
                                       stakeholders, including customers and users, so all
                                       relevant parties are involved in future and existing
                                       projects.

 Management’s                    Management disagreed with our finding and
 Comments                        recommendation. Management commented that the audit
                                 referenced a lack of awareness by plant managers of the
                                 upgrade as evidence of a lack of involvement. Postal
                                 Service management believes that the site surveys and the
                                 program information provided to sites was the appropriate
                                 involvement. Management stated that they can document
                                 that coordinators at each site were notified concerning the
                                 upgrade. The audit also expressed concern that mailers
                                 and members of the Confirm program group were not more
                                 intimately involved. According to management, executive
                                 managers of the upgrade were regular participants in
                                 Confirm stakeholder meetings and in monthly Confirm
                                 workgroups.

 Evaluation of                   Although, we agree that site coordinators were notified of
 Management’s                    the Integrated Data System upgrade, there was no
 Comments                        involvement or feedback from the plant managers. In our
                                 view, the plant managers’ input could augment the feedback
                                 from the site coordinators. We also reported that Confirm
                                 program management was not always involved in the
                                 upgrade.

                                 Although, management disagreed with our finding and
                                 recommendation, management’s planned actions satisfy the
                                 intent of our recommendation.




                                                 4
                                      Restricted Information
Integrated Data System Upgrade                                                     EM-AR-02-013




 Software Change                 The Engineering software change request process was not
 Request Process                 followed for the upgrade.

                                 The Engineering methodology for software development
                                 establishes a software change request process, which must
                                 be followed for all enhancements or changes to software.
                                 The purpose of the software change request process is to
                                 analyze proposed changes to determine the impact and
                                 level of effort, as well as formally review projects at the
                                 project level (Project Change Board) and at the Engineering
                                 organization level (Engineering Change Board).

                                 The program manager did not follow the software change
                                 request process because he felt that the upgrade was
                                 primarily for hardware. Our review of the Decision Analysis
                                 Report found that the upgrade was funded in excess of
                                 $10 million for software enhancements. In addition, the
                                 chairperson of the Engineering Change Board agreed that
                                 the project should have been reviewed and approved by the
                                 Engineering Change Board.

                                 As a result of not following the software change request
                                 process, the Postal Service cannot ensure that the impact
                                 the upgrade has on resources, customers, and other
                                 systems has been identified and addressed. In addition, the
                                 upgrade may not have buy-in across all levels of the
                                 Engineering organization.

 Recommendation                  We recommend the vice president, Engineering, ensure:

                                    2. Program managers are aware of the requirement to
                                       use the software change request process for all
                                       enhancements or changes to software.

 Management’s                    Management disagreed with our finding and
 Comments                        recommendation. Management stated that the contract for
                                 developing the upgrade was given to Lockheed Martin
                                 Corporation, in a competitive award. The Postal Service
                                 had an existing system in place that performed several of
                                 the functions that were included in the requirements for the
                                 upgrade. The source documents were provided to the
                                 contractor for reference. Competitors were not required to
                                 use the source documents as a basis for their proposed
                                 system upgrade work. During systems development
                                 when software systems are modified from a base of existing

                                                 5
                                      Restricted Information
Integrated Data System Upgrade                                                        EM-AR-02-013



                                 code and documentation then it is appropriate to impose a
                                 change management process to manage the delta.
                                 However, if the product is a new system, by definition, it is at
                                 the beginning of its lifecycle. When the contractor delivers
                                 the upgrade software to the Postal Service it is the starting
                                 point for managing changes to the delivered software and
                                 documentation baseline. Management does not believe that
                                 the change request process should have applied to this
                                 development.

 Evaluation of                   Management’s comments indicate that source documents
 Management’s                    were provided for reference; but it is not stated whether the
 Comments                        contractors used the source documents as a basis for the
                                 system. The comments did, however, state that the existing
                                 system performed several of the functions that were
                                 included in the requirements for the upgrade. Furthermore,
                                 other project documents led us to conclude this
                                 development effort was an upgrade, not a new system.

                                 Notwithstanding this issue, we believe it is in the best
                                 interest of the Postal Service to implement our
                                 recommendation, and ensure that program managers are
                                 aware of the requirement to appropriately use the software
                                 change request process. We view the disagreement on this
                                 recommendation as unresolved but do not plan to pursue it
                                 through the formal audit resolution process.




                                                 6
                                      Restricted Information
Integrated Data System Upgrade                                                                       EM-AR-02-013




    Information Security          The information security assurance process outlined in
    Assurance Process             Handbook AS-8052 was not followed. Specifically, the
                                  business impact assessment, which includes a classification
                                  of sensitivity and criticality; the risk assessment; and security
                                  plan should have been developed prior to the current testing
                                  phase. In addition, the information system security
                                  representative did not perform the responsibilities
                                  associated with testing.

                                  According to Handbook AS-805, the information security
                                  assurance process should be initiated anytime there are
                                  significant changes to the operating environment, the
                                  business requirements, or the application.




2
  The Handbook AS-805, entitled Information Security establishes the Postal Service information security
policies required for appropriately identifying information resources and business requirements and
appropriately protecting those information resources.

                                                    7
                                         Restricted Information
Integrated Data System Upgrade                                                      EM-AR-02-013




                                 The information security assurance process requires the
                                 business impact assessment be completed in the definition
                                 phase and the risk assessment and security plan be
                                 completed in the design and integration phase (as identified
                                 on page 6 in the chart). In addition, Handbook AS-805
                                 identifies the information system security representative’s
                                 responsibilities associated with the testing phase.

                                 The information security assurance process was not
                                 followed because the information system security
                                 representative was unaware that the information system
                                 assurance requirements had never been completed for the
                                 Integrated Data System upgrade, and that he was required
                                 to complete the requirements. He believed he was only
                                 responsible for completing the business impact assessment
                                 as part of a 3 year requirement for legacy systems. As a
                                 result of not completing the information security assurance
                                 requirements, the Postal Service cannot be assured that due
                                 care was taken to protect its information resources.

 Recommendation                  We recommend the vice president, Engineering, ensure:

                                   3. The information system security representative
                                      completes the information security assurance
                                      requirements for the Integrated Data System upgrade.

 Management’s                    Management agreed with our finding and recommendation.
 Comments                        Management plans to designate an information security
                                 systems representative for the Integrated Data System
                                 upgrade. The completed Information Security Assurance
                                 requirements for the Integrated Data System upgrade will be
                                 completed by November 30, 2002.

 Evaluation of                   In the OIG’s opinion, management actions taken or planned
 Management’s                    should correct the problem or resolve the issues identified in
 Comments                        the report.




                                                 8
                                      Restricted Information
Integrated Data System Upgrade                                                         EM-AR-02-013




 Hardware Resources              The statement of work and software requirements
                                 specification did not identify all the hardware resources.
                                 Specifically, the unique network requirements for each of the
                                 Integrated Data System upgrade sites were not identified.
                                 However, both of these documents identified equipment
                                 requirements, such as size, capacity, and memory.

                                 The Engineering methodology for software development
                                 states that hardware resources, such as communications
                                 and network equipment, must be included in the software
                                 requirements specification.

                                 Some hardware resources were not identified because
                                 Engineering officials did not provide all equipment and
                                 network infrastructure requirements to the vendor. In
                                 addition, they did not require the vendor to develop these
                                 requirements. Instead, Engineering decided to wait until the
                                 end of the Integrated Data System upgrade life cycle to
                                 evaluate network infrastructures at the sites.

                                 As a result of not identifying all unique network
                                 requirements, there is a risk that the upgraded system will
                                 not work at all of the sites. Engineering officials agreed that
                                 there is an issue with the network infrastructures at some of
                                 the sites. Maintenance managers at two of the sites stated
                                 that the network infrastructures in their facilities were out-of-
                                 date and already experiencing network problems with other
                                 systems. In addition, three test sites were evaluated and it
                                 was determined that new equipment, such as switches and
                                 bridges, needed to be installed in order for the upgrade to
                                 work.

 Recommendation                  We recommend the vice president, Engineering, ensure:

                                     4. An evaluation of the network infrastructure at each
                                        site prior to deployment. The evaluation should
                                        determine what enhancements are needed, there
                                        respective costs, and how they will be funded.




                                                 9
                                      Restricted Information
Integrated Data System Upgrade                                                      EM-AR-02-013




 Management’s                    Management agreed with our finding and recommendation.
 Comments                        In the short term, parameters that allow for real-time
                                 interoperable exchange of data will be disabled. This is an
                                 interim measure until sufficient bandwidth becomes
                                 available. For future years, a separate initiative to upgrade
                                 the infrastructure has been prepared to request funding.
                                 Postal Service management expects this request to be
                                 before the Board of Governors in November 2002 and the
                                 upgrade would begin in early 2003 and proceed through
                                 2006.

 Evaluation of                   In the OIG’s opinion, management actions taken or planned
 Management’s                    should correct the problem or resolve the issues identified in
 Comments                        the report.




                                                10
                                      Restricted Information
Integrated Data System Upgrade                                                       EM-AR-02-013




 System Test Plan                The system test plan did not include the development of a
                                 security test plan, testing of security requirements, or any
                                 security considerations.

                                 Best practices and Handbook AS-805 state that a security
                                 test plan should be developed, which tests the security
                                 requirements. The template attached to the Engineering
                                 methodology for software development states that security
                                 considerations, such as: confidential, sensitive, or vendor-
                                 proprietary products or information, should be included in
                                 the system test plan.

                                 Engineering officials did not ensure the system test plan,
                                 developed by the contractor, included testing of security
                                 requirements and identification of security considerations.
                                 However, the contractor did prepare an in-plant test plan,
                                 which contained detailed test procedures related to the
                                 testing of security requirements.

                                 As a result of not addressing security in the system test
                                 plan, the Postal Service cannot ensure that detailed security
                                 testing procedures will be included in future test cases. In
                                 addition, the Postal Service cannot ensure that security
                                 considerations are communicated and adequately
                                 addressed during testing.

 Recommendation                  We recommend the vice president, Engineering, ensure:

                                     5. The system test plan is updated to include, at a high
                                        level, the testing of security requirements and the
                                        identification of security considerations.

 Management’s                    Management agreed with our finding and recommendation.
 Comments                        Management is currently finalizing a standardized security
                                 input document that will be issued with the statement of
                                 work. This document will be consistent with AS-805 and the
                                 Information Security Assurance process. Completion of a
                                 final document is planned for September 30, 2002.

 Evaluation of                   In the OIG’s opinion, management actions taken or planned
 Management’s                    should correct the problem or resolve the issues identified in
 Comments                        the report.




                                                11
                                      Restricted Information
Integrated Data System Upgrade                                                       EM-AR-02-013




 In-Plant Test Plan              During our review of the in-plant test plan, we found that the
                                 test procedures were fully documented with expected
                                 results. In addition, the in-plant test plan included the
                                 following key standards:

                                    •    Test cases that are traceable to user, system, and
                                         software requirements.
                                    •    Measurement criteria.
                                    •    Testing of the security features.
                                    •    Testing of all requirements.
                                    •    Testing of the catastrophic recovery procedures.




                                                  12
                                        Restricted Information
Integrated Data System Upgrade                            EM-AR-02-013



               APPENDIX. MANAGEMENT’S COMMENTS




                                           13
                                 Restricted Information
Integrated Data System Upgrade                            EM-AR-02-013




                                           14
                                 Restricted Information
Integrated Data System Upgrade                            EM-AR-02-013




                                           15
                                 Restricted Information
Integrated Data System Upgrade                            EM-AR-02-013




                                           16
                                 Restricted Information
Integrated Data System Upgrade                            EM-AR-02-013




                                           17
                                 Restricted Information
